No. 18A1172
STAPLES, INC., ET AL.,
V.

MARYLAND COMPTROLLER OF THE TREASURY
CERTIFICATE OF SERVICE

I, Joseph R. Palmore, hereby certify that I am a member of the Bar of this
Court, and that I have this 6th day of June, 2019, caused one copy of the
Application For An Extension of Time Within Which To File A Petition For A Writ
of Certiorari to the Maryland Court of Special Appeals to be served on the following
counsel by third-party carrier and also by electronic mail.
Brian E. Frosh
Attorney General of Maryland
303 Goldstein Treasury Building
80 Calvert Street
P.O. Box 466
Annapolis, MD 21404-0466
oag@oag.state.md.us
Brian L. Oliner
Michael J. Salem
Schonette J. Walker
Assistant Attorney General
Office of the Maryland Attorney General
Louis L. Goldstein Treasury Building
80 Calvert Street, Room 303
Annapolis, MD 21404-0466
boliner@comp.state.md.us

Dated: June 6, 2019
Joseph R. Palmore

